                                          April 30, 1998

The Honorable Federico Peña
Secretary
U.S. Department of Energy
Washington, D.C. 20585

Dear Secretary Peña:

This Semiannual Report to Congress for the first half of Fiscal Year (FY) 1998 is submitted by
the Office of Inspector General for transmittal to the Congress, pursuant to the provisions of the
Inspector General Act of 1978.

During this reporting period, the Office of Inspector General continued to advise Headquarters
and field managers of opportunities to improve the efficiency and effectiveness of the Depart-
ment's management controls, with particular emphasis on coverage of issues addressed in the De-
partment's Strategic Plan. We also have supported the Department's streamlining initiatives by
evaluating the cost effectiveness and overall efficiency of Department programs and operations,
placing special emphasis on key issue areas which have historically benefited from Office of In-
spector General attention. For example, in this and prior periods, we have concentrated on re-
viewing performance-based contracts, performance outcomes, cost reduction incentive programs,
and performance information systems. We view these efforts as assisting the Department in im-
plementing the Government Performance and Results Act (the Results Act), which requires the
Department to establish strategic planning and performance measurement.

For the remainder of the fiscal year and in FY 1999, we plan to concentrate our efforts in the fol-
lowing areas: auditing the Department’s consolidated financial statements, reviewing the De-
partment’s implementation and execution of the Results Act, reviewing Department “high risk”
areas such as performance-based contracting, conducting performance reviews at several major
Department facilities, and emphasizing complex criminal and civil investigations with the greatest
potential for prosecution and/or civil recovery. These efforts are resource-intensive and will be
pursued to the extent resources permit. Our overall focus remains on assisting Department man-
agement in preventing fraud, waste, and abuse; helping to ensure the quality of Department pro-
grams and operations; and keeping you and the Congress fully informed.

                                                  Sincerely,



                                                  Gregory H. Friedman
                                                  Acting Inspector General
                                                  Enclosure
                                                               CONTENTS


Executive Summary ....................................................................................1

Some Significant Actions............................................................................. 3

Section I: OIG Strategic Goals and Relevant Work Efforts .............. 9

Section II: Progress in Accomplishing OIG Strategic Goals............. 33

Section III: OIG Mission and Administration

      Mission ......................................................................................................... 39
      Organization and Staffing............................................................................. 39
      Inspector General Priorities.......................................................................... 41
      Congressional Requests ................................................................................ 41

Section IV: Reports Issued

      Audit Reports ................................................................................................ 45
      Inspection Public Reports ............................................................................. 49
      Reports Availability ...................................................................................... 50

Section V: Statistics

      Definitions .................................................................................................... 53
      Office of Audit Services................................................................................. 55
      Office of Investigations ................................................................................. 59
      Office of Inspections ..................................................................................... 60




                                                                   2
                                                OIG Mission Statement

      The Office of Inspector General promotes the effective, efficient, and economical operation of De-
         partment of Energy programs through audits, inspections, investigations and other reviews.

                                                 OIG Vision Statement

                                We do quality work that facilitates positive change.

                                                   OIG Strategic Goals

♦   Conduct statutorily required audits of the Department, and its four business lines (Energy Resources, National Security,
    Environmental Quality, and Science and Technology), enabling the public to rely on DOE’s financial and management
    systems.

♦   Conduct performance reviews which promote the efficient and effective operation of the Department’s business lines.

♦   Conduct investigations to enhance the credibility of the Department and integrity of its business lines by aggressively pur-
    suing fraud, waste, and abuse, and reporting on those engaged in such practices.

♦   Conduct inquiries which assist the Department in fostering public confidence in the Department’s integrity, commitment
    to fairness, and willingness to take corrective action.

                                                 DOE‘s Strategic Goals

♦   The Department of Energy and its partners promote secure, competitive, and environmentally responsible energy systems
    that serve the needs of the public.

♦   Support national security, promote international nuclear safety, and reduce the global danger from weapons of mass de-
    struction.

♦   Aggressively clean up the environmental legacy of nuclear weapons and civilian nuclear research and development pro-
    grams, minimize future waste generation, safely manage nuclear materials, and permanently dispose of the Nation’s ra-
    dioactive wastes.

♦   Deliver the scientific understanding and technological innovations that are critical to the success of DOE’s mission and
    the Nation’s science base.

♦   The Department of Energy continuously demonstrates organizational excellence in its environment, safety and health
    practices, communication and trust efforts, and its corporate management systems and approaches.




                                                        2
                                EXECUTIVE SUMMARY


     This Office of Inspector General (OIG) Semiannual Report to the Congress covers the period from
October l, 1997, through March 31, 1998. The report summarizes significant audit, inspection, and investi-
gative accomplishments for the reporting period that facilitated Department of Energy (Department) efforts
to improve management controls and ensure efficient and effective operation of its programs.

    This report highlights OIG accomplishments in support of its Strategic Plan. Narratives of the Office’s
most significant reports are grouped by the strategic goals against which the OIG measures its performance.

     To put the OIG accomplishments for this reporting period in context, the following statistical informa-
tion is provided:

    ♦   Audit and Inspection reports issued: 47
    ♦   Recommendations that funds be put to better use: $356,257,856
    ♦   Management commitment to taking corrective actions: $289,106,445
    ♦   Criminal indictments/convictions: 8
    ♦   Fines and recoveries: $1,612,932
    ♦   Investigative reports to management recommending positive change: 21




                                                2
                    SOME SIGNIFICANT ACTIONS

This section highlights some significant OIG accomplishments during this reporting period.

Divestiture of Elk Hills Naval Petroleum             a single point of contact for Department
Reserve (NPR) to Private Owners                      field offices.
                                                              This action was based, in part, on an
         The OIG assisted the Department in          OIG review which disclosed that the De-
the largest divestiture of Federal property in       partment’s contractors did not always use
the history of the U.S. Government. The              the most favorable rates available for dispos-
Department and Occidental Petroleum Cor-             ing of waste at a private sector treatment
poration concluded the divestiture of Federal        facility. The Department disposes of some
property in February 1998. Occidental paid           of its contaminated waste at a commercial
$3.65 billion for the Government’s interest          treatment and disposal facility in Clive, Utah.
in the NPR. This valuable oil field property         Although contracts with discounted prices
had been owned by the Federal Government             were available, two of the Department’s
since President Taft created the reserve in          contractors awarded subcontracts to the
1912. This transfer completed a privatiza-           commercial facility with rates that were
tion process that began in 1995 when the             higher than available Departmentwide rates.
Administration proposed selling the Elk Hills        This occurred because the Department did
reserve which is near Bakersfield, California.       not require contractors to use the most fa-
         At the request of the Department’s          vorable, volume-discounted rates available.
investment banker, the OIG audited the fi-           As a result, the Department incurred unnec-
nancial statements prepared by the Depart-           essary costs to dispose of contaminated
ment to support the sale. The OIG con-               waste.
cluded that management’s representation of                    During the audit, one of the contrac-
the financial position of the NPT for periods        tors reopened negotiations with the com-
leading up to the final sale was presented           mercial facility and obtained a lower rate,
fairly, in all material respects, and that the       which will save the Department about $3.2
results of its position and cash flows fo rthe       million over the next 3 years. (ER-B-98-05)
period preceding the sale were in conformity
with the applicable accounting policies. The         Department Acts to Improve Occupa-
OIG was informed that its report was an in-          tional Injuries and Illnesses Recordkeep-
tegral part of the documentation supporting          ing
the sale. (WR-FC-98-02)
                                                             An audit of occupational injuries and
Department Acts to Reduce Unnecessary                illnesses recordkeeping resulted in Depart-
Costs Incurred in Disposing of Contami-              mental action to implement a system to bet-
nated Waste                                          ter identify organizations with reporting
                                                     problems. As a result of that report, but
        During this reporting period, the De-        during this reporting period, the Assistant
partment established a Center for Excellence         Secretary for Environment, Safety and
for low-level and mixed low-level waste.             Health required each field element manager
The     Center    will    function     as   a        to: (1) review occupational recordkeeping
“clearinghouse” for information and provide          and reporting processes to validate compli-
                                                     ance with Departmental requirements and



                                                 3
                   SOME SIGNIFICANT ACTIONS

report back with the results by January             worth $69,066 to employee healthcare in-
1998; and (2) establish quality assurance           surance providers for the Department’s
systems to identify potential underreporting        Sandia National Laboratory (SNL). The
of occupational injuries and illnesses and          office manager submitted the claims for
identify areas for improvement. Addition-           costs associated with services she claimed
ally, a workshop was held in Aiken, South           she and her husband received. Her husband
Carolina, on recordkeeping and reporting            is a retired SNL employee. The physician
requirements. (IG-0404)                             advised, however, that he never treated the
                                                    office manager’s husband and that he never
Consultant Convicted of Tax Evasion                 charged the office manager for treatment.
                                                             The investigation disclosed that the
         A consultant to a Department con-          office manager had a criminal history for
tractor was convicted of tax evasion. A             health care fraud. The office manager con-
joint investigation by the OIG and the U. S.        fessed to submitting the false claims and
Internal Revenue Service (IRS) revealed             subsequently using the money for personal
that the consultant provided a false tax            items. As a result, the office manager
identification number to avoid paying taxes         pleaded guilty to a felony for filing false,
on substantial sums earned through consult-         fictitious, and fraudulent claims against the
ant work for the Department.                        United States. She was sentenced to 12
         The U.S. Attorney’s Office, District       months and 1 day in prison and ordered to
of Maryland, accepted the case for prosecu-         pay over $69,000 in restitution. (I95AL033)
tion. The consultant pleaded guilty to tax
evasion and was sentenced to 8 months con-          The Department Needs to Improve Inte-
finement, 2 years supervised probation, and         gration of Research and Development
200 hours community service; and was or-            Projects
dered to pay a $15,000 fine. The consultant
filed amended tax returns for the years 1990,               The Congress, independent task
1991, 1993, and 1994 and paid $494,250 in           forces and advisory groups have pointed out
additional taxes and interest. The IRS has          the need for the Department to improve its
assessed the consultant $238,632 in fraud           integration of research and development
penalties.                                          (R&D) projects. In the past, R&D man-
         As a result of OIG Administrative          agement was carried out by different pro-
Reports to Management, the Department               gram offices with the research being per-
debarred the consultant and the company             formed both internally and externally to the
from       Government       contracts     and       Department.
subcontracts for 3 years. (I93OR023)                        In its review of the R&D process,
                                                    the OIG found that the Department did not
A Private Physician’s Office Manager is             have a systematic process to ensure that
Convicted for Filing False Healthcare In-           R&D projects were jointly planned, budg-
surance Claims                                      eted, and managed. Further, the Department
                                                    had developed a 5-year plan for improving
        An OIG investigation confirmed an           the integration of basic energy research with
allegation that an office manager for a pri-        other energy programs, but never imple-
vate physician had submitted 66 false claims        mented the plan. This occurred because the



                                                4
                   SOME SIGNIFICANT ACTIONS

Department had not clearly established or-          implement existing procedures or establish
ganizational responsibility or authority for        other monitoring procedures that ensured
integrating research across programs. Inde-         grantees fulfilled their grant obligations.
pendent of the OIG review, the Secretary                    The OIG recommended that the De-
had reached similar conclusions about the           partment take several actions to ensure
need for greater integration of the Depart-         proper accounting for grant activities, such
ment’s R&D programs. Consequently, the              as awarding additional grants only when
Under Secretary has instituted a number of          grantees have met the terms and conditions
actions for improving the integration of            of prior awards.
R&D projects.                                               Department management concurred
        To facilitate the Under Secretary’s         with the recommendations. (IG-0415)
efforts, the OIG recommended that organ-
izational authority and responsibility be de-       Contractor is Rewarded for Performance
signed to integrate R&D projects.                   That Could Not be Validated
        Department management concurred
with the recommendation and initiated cor-                  An OIG audit disclosed that the
rective action. (IG-0417)                           performance measures included in the
                                                    Bechtel Nevada Corporation’s (Bechtel)
Grant Awardees Not Meeting Reporting                contract did not conform to the Depart-
Requirements                                        ment’s requirements for performance-based
                                                    contracting. The Nevada Operations Office
        The Department awards grants to             (Nevada) established performance mile-
colleges and universities, state and local          stones after Bechtel had actually completed
governments, individuals, small businesses,         the work. Further, many of the performance
and non-profit corporations. As of July 15,         measures did not clearly state the required
1996, the Department administered over              results. Thus, Nevada rewarded perform-
7,400 grants valued at about $8 billion with        ance that could not be objectively validated.
purposes ranging from basic research to             Ultimately, the problems placed at risk the
weatherization projects.                            success of performance-based contracting at
        An OIG audit identified many grant-         Nevada.
ees who did not provide final technical                     The audit report recommended that
and/or financial reports. For example, at the       Department management establish clearly-
five procurement offices audited, the OIG           stated and results-oriented performance
projected that the Department had not re-           measures before the work is performed and
ceived final deliverables on 718 inactive           validate the results before disbursing incen-
grants valued at about $232 million. In             tive fees.
other cases, officials inappropriately ex-                  Department management concurred
tended performance periods so that the grant        with the recommendation. (IG-0412)
instrument would continue to be classified as
active. The Department did not effectively




                                                5
OIG STRATEGIC GOAL NO. 1:                      Conduct statutorily required audits of the De-
partment, which has four business lines (Energy Resources, National Security, Environmental
Quality, and Science and Technology), enabling the public to rely on the Department of Energy’s
financial and management systems.


In fulfilling the requirements of the Government Management Reform Act, and the OIG
5-year Strategic Plan, the OIG completed the audit of the Department’s Fiscal Year 1997
Consolidated Financial Statement.

Consolidated      Financial     Statements         ported that controls over performance
Audit                                              measure information presented in the
                                                   overview to the consolidated financial
         On February 26, 1998, the OIG             statements need to be strengthened to en-
issued its report on the "Audit of the U.S.        sure that information is adequately sup-
Department of Energy's Consolidated Fi-            ported and properly presented.
nancial Statements for Fiscal Year 1997."                   Additionally, the OIG reported a
The report included the OIG's opinion that         number of other conditions relating to the
the Department's financial statements pre-         Department's system of internal controls.
sented fairly, in all material respects, the       The recommendations made in these re-
financial position of the Department as of         ports were designed to strengthen internal
September 30, 1997, and the results of its         controls or improve operating efficiencies.
operations for the year then ended. The                     As described in the audit opinion,
OIG also reported on the Department's              the Department is faced with a number of
system of internal controls and on its             uncertainties. The most significant of
compliance with laws and regulations ap-           these is the environmental liability esti-
plicable to financial statement audits. The        mate. In addition to the uncertainty inher-
Department's Financial Statements re-              ent in any long-term estimate, uncertainties
ported net assets of $97 billion, total li-        also exist with regard to the realization of
abilities of $222 billion, including envi-         Departmental plans regarding funding,
ronmental liabilities of $179 billion, and         facility end-states, anticipated regulatory
total revenues and financing sources of            approvals, and projected savings from
$25 billion. The Department's expenses of          productivity and efficiency improvements.
$19 billion were significantly impacted by         Similar concerns exist with regard to the
a reduction in the Department’s unfunded           resolution of various administrative and
environmental liability.                           legal proceedings to which the Department
         The OIG report on the system of           is a party, including issues involving the
internal controls identified problems in two       Nuclear Waste Fund.
areas that were considered reportable in-                   The OIG, along with the Offices of
ternal control deficiencies. First, the OIG        the Chief Financial Officer and the Assis-
reported that a systematic process needed          tant Secretary for Environmental Man-
to be developed and implemented to im-             agement, had to contend with an evolving
prove the method of estimating the envi-           estimate of the Department's environ-
ronmental liability. Second, the OIG re-           mental liabilities. The enormity and com




                                               9
OIG STRATEGIC GOAL NO. 1:                      Conduct statutorily required audits of the De-
partment, which has four business lines (Energy Resources, National Security, Environmental
Quality, and Science and Technology), enabling the public to rely on the Department of Energy’s
financial and management systems.


plexity of the liability represented a signifi-        is implementing new accounting standards
cant audit obstacle. Despite the complex-              and OMB Form and Content Guidance.
ity, the OIG completed the audit of the                This increased workload and associated
statements within the statutory reporting              resource demand continue to be of special
date of March 1, 1998, established by the              concern to the OIG given the limited re-
Government Management Reform Act.                      sources available to meet statutory re-
        For the upcoming year, the OIG                 quirements for financial and performance
will be faced with increasing the scope of             audits. (IG-FS-98-01)
its work to focus on how the Department




                                                  10
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


During this reporting period, the OIG completed the following audit and inspection reviews to
conform to the goals, objectives, and performance measures outlined in the OIG’s 5-year Stra-
tegic Plan:

Contractor is Rewarded for Perform-                 plished prior to setting the measure, where
ance That Could Not Be Validated                    the performance measure was not met, or
                                                    where the savings cannot be demonstrated.
         As part of its contract reform ini-                Department management con-
tiatives, the Department has adopted per-           curred with both recommendations. (IG-
formance-based contracting for managing             0412)
and operating its major facilities. Under
this approach, the Department evaluates a           The Department Needs to Recover
contractor’s performance against perform-           $46.3 Million in Fuel Costs From NASA
ance measures that are clearly stated, re-          Space Mission
sults-oriented, and established prior to
performance. The performance measures,                       The Department’s Advanced Ra-
which reflect the Department’s expecta-             dioisotope Power Systems Program
tions of the contractor, are the basis for          maintains the sole national capability and
rewarding superior contractor perform-              facilities to produce radioisotope power
ance through the use of incentive fees.             systems for the National Aeronautics and
         An OIG audit disclosed that the            Space Administration (NASA), the De-
performance measures included in the                partment of Defense, and other Federal
Bechtel Nevada Corporation’s (Bechtel)              agencies. Projects are conducted with
contract did not conform to the Depart-             these agencies in accordance with written
ment’s requirements for performance-                agreements and are dependent on cost
based contracting. The Nevada Opera-                sharing by the user agencies. NASA is
tions Office (Nevada) established perform-          one of the Department’s primary custom-
ance milestones after Bechtel had actually          ers for the power systems. For the past 7
completed the work. Further, many of the            years, the program emphasis has been on
performance measures did not clearly state          providing these systems for NASA’s
the required results. Thus, Nevada re-              Cassini mission to Saturn, which was
warded performance that could not be ob-            launched in early October 1997.
jectively validated. Ultimately, the prob-                   Departmental policy requires full
lems placed at risk the success of perform-         cost reimbursement for fuel used in
ance-based contracting at Nevada.                   NASA’s radioisotope power systems. An
         The audit report recommended that          OIG audit determined, however, that the
Department management establish clearly-            Department has not recovered any fuel
stated and results-oriented performance             costs for the Cassini mission. The OIG es-
measures before the work is performed               timated that the Department should have
and validate the results before disbursing          collected about $46.3 million from NASA
incentive fees. The report also recom-              for fuel used in Cassini radioisotope power
mended that Nevada review all perform-              systems. The reimbursement from NASA
ance measure incentive fees paid and seek           for the Cassini mission was to be handled
recovery where the work was accom-                  in accordance with two interagency


                                               11
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


agreements. The first agreement set up the         age the use of field contractor employees
reimbursement requirements for all Cassini         assigned to Headquarters and other Fed-
radioisotope power systems costs except            eral agencies. Specifically, the Department
fuel costs. A second agreement would               was unable to identify all contractor em-
cover reimbursements for fuel costs for the        ployees assigned to the Washington, DC
Cassini mission and other future NASA              area or determine the total cost of main-
missions. Although the Department and              taining them. Some employees were pro-
NASA completed and implemented the                 viding routine support and administrative
Cassini agreement, they did not complete a         services rather than unique program ex-
fuel agreement.                                    pertise, and several of the Department's
        The Office of Nuclear Energy, Sci-         contractors had assigned their employees
ence and Technology (Office of Nuclear             to work in other agencies without receiv-
Energy) asked the Controller to waive the          ing full reimbursement for their services.
full cost reimbursement policy for fuel            After performing a reconciliation of data,
provided for NASA’s space missions. The            over 850 field contractor employees were
Controller denied the request and later            identified in the Washington, DC area.
stated     that any     fuel reimbursement                  In addition, the Department did not
agreement with NASA should state that              fully implement the corrective actions it
the final price will be the actual, fully-         agreed to in the prior audit report. A July
allocated cost determined at the time of           1996 OIG report identified weaknesses in
production. Because the Office of Nuclear          the Department’s monitoring of the use of
Energy never reached any agreement with            contractor employees in Headquarters. In
NASA, the Department did not recover               response to the report, the Deputy Secre-
the fuel costs from NASA for the Cassini           tary issued a memorandum reiterating the
mission.                                           Secretary’s concerns and requested a
        The audit report recommended that          thorough review to ensure that contractor
the Director, Office of Nuclear Energy,            employees at Headquarters were not being
establish an interagency agreement with            used inappropriately.
NASA and recover the total cost of fuel                     The OIG recommended a series of
provided for the Cassini systems.                  steps designed to strengthen earlier efforts
        Department management con-                 to address this problem. The OIG recom-
curred with the findings and recommenda-           mended that program offices develop and
tions, stating that negotiations with NASA         maintain a complete inventory of field
would be revitalized. (IG-0413)                    contractor employees assigned to the
                                                   Washington, DC area (including other
Management Controls Over Field Con-                Federal agencies); coordinate with the Of-
tractor Employees Need Strengthening               fice of Procurement and Assistance Man-
                                                   agement to continuously update and
       An audit report found that the De-          maintain the database of contractor em-
partment had not fully resolved previously         ployees; establish a baseline of critical
reported OIG concerns regarding contrac-           skills needed from the field; discontinue
tor employees working at Headquarters.             use of contractor employees that do not
The Department did not effectively man-            provide these critical skills; establish policy



                                              12
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


and procedures that require the Depart-             OIG projected that the Department had
ment to evaluate the cost of and the need           not received final deliverables on 718 in-
for field contractor employees before they          active grants valued at about $232 million.
are assigned to the Washington, DC area;            In other cases, officials inappropriately
and implement existing policies and proce-          extended performance periods so that the
dures requiring approval of contractor              grant instrument would continue to be
employees prior to assignment.                      classified as active. The OIG found this
         Department management agreed               occurred because the Department did not
with the findings and generally concurred           effectively implement existing procedures
with the recommendations. Department                or establish other monitoring procedures
management stated that it has been work-            that ensured grantees fulfilled their grant
ing for some time to improve management             obligations.
controls in this area and intends to                         To ensure proper accounting for
strengthen this initiative further. (IG-            grant activities, the OIG recommended
0414)                                               that the Department: (1) retain a portion
                                                    of the award amount until the grantee
Grant Awardees Not Meeting Report-                  meets all the terms and conditions of the
ing Requirements                                    grant; (2) discontinue the practice of
                                                    waiving grant deliverables to accommo-
         To help meet legislatively man-            date the award close-out process; (3)
dated and programmatic mission require-             award additional grants to grantees only
ments, the Department awards grants to              when they met the terms and conditions of
colleges and universities, state and local          prior awards; and (4) extend grant per-
governments, individuals, small businesses,         formance periods only when appropriate.
and non-profit corporations. As of July             This recommendation is consistent with
15, 1996, the Department administered               the intent of the Government Performance
over 7,400 grants with purposes ranging             and Results Act of 1993.
from basic research to weatherizing                          Department management con-
homes. The Department’s share of these              curred with the recommendations. (IG-
grants was about $8 billion.                        0415)
         The Code of Federal Regulations
requires that grants benefit the general            Departmental Support Service Acquisi-
public. This is demonstrated through                tion Policy Not Being Followed
technical and/or financial reports that each
grantee is required to deliver. These re-                    Department policy prohibits the
ports should describe the final results of          use of support service subcontractors hired
the grant effort and provide the Depart-            by management and operating contractors
ment with a basis for evaluating grantee            to directly support Headquarters or field
performance.                                        office employees. When support is neces-
         An OIG audit identified many               sary, program offices must use the Head-
grantees that did not provide final techni-         quarters procurement organization, not the
cal and/or financial reports. For example,          management and operating contractors.
at the five procurement offices audited, the        Since August 1981, Department senior
                                                    officials have communicated this policy in


                                               13
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


several memoranda. Despite this policy,            The Department Needs to Improve In-
however, the OIG has reported several              tegration of Research and Development
instances of noncompliance with the De-            Projects
partment’s policy and the extensive use of
subcontractor employees by Department                       The Congress, independent task
program offices.                                   forces, and advisory groups have pointed
        An OIG audit disclosed that four           out the need for the Department to im-
major program offices used 24 subcon-              prove its integration of research and de-
tracts awarded by Argonne National Labo-           velopment (R&D) projects. In the past,
ratory (Argonne) to acquire support serv-          R&D management was carried out by dif-
ices in FY 1996. The Department reim-              ferent program offices with the research
bursed Argonne about $2.9 million for the          being performed both internally and exter-
services under 24 subcontracts during FY           nally to the Department. Because program
1996. These four offices acquired subcon-          offices were managed independently, there
tractor services through Argonne because           was little effort to coordinate the planning
they believed that its procurement organi-         and budgeting of research across program
zation could provide the services faster           lines. The Department spent about $6.5
than the Headquarters procurement or-              billion on R&D activities during Fiscal
ganization. As a result, the Department            Year 1997 and plans to spend about $6.7
may have paid more than necessary for the          billion in Fiscal Year 1998.
services, while many of the safeguards                      In its review of the R&D process,
against noncompliance with laws and                the OIG found that the Department did not
regulations that the Department’s pro-             have a systematic process to ensure that
curement process normally provides were            R&D projects were jointly planned, budg-
lost.                                              eted, and managed. Further, the Depart-
        The audit recommended that the             ment had developed a 5-year plan for im-
program offices: (1) direct their program          proving the integration of basic energy re-
managers to discontinue the practice of            search with other energy programs, but
acquiring support services from subcon-            never implemented the plan. This oc-
tractors hired by Argonne; and (2) estab-          curred because the Department had not
lish management controls to ensure that            clearly established organizational respon-
program managers acquire support serv-             sibility or authority for integrating research
ices through the Department’s normal pro-          across programs. Therefore, the Depart-
curement process, and not through man-             ment may be missing opportunities to use
agement and operating contractors.                 R&D dollars more effectively. Independ-
        The program offices agreed with            ent of the OIG review, the Secretary had
the finding and recommendations and ini-           reached similar conclusions about the need
tiated corrective action. (IG-0416)                for greater integration of the Department’s
                                                   R&D programs. Consequently, the Under




                                              14
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


Secretary has instituted a number of ac-            cated that testing could be done elsewhere,
tions for improving the integration of              at a potential cost savings of several mil-
R&D projects.                                       lion dollars annually. Therefore, the OIG
         To facilitate the Under Secretary’s        recommended that Albuquerque conduct a
efforts, the OIG recommended that organ-            comprehensive study of all testing alterna-
izational authority and responsibility be           tives. In addition, the OIG recommended
designed to ensure a system is in place to          that, if the study found that it was not fea-
integrate R&D projects.                             sible or economical to move the testing
         Department management con-                 elsewhere, Albuquerque should reduce the
curred with the recommendation and initi-           cost of Tonopah to the minimum level
ated corrective action. (IG-0417)                   necessary to support testing requirements.
                                                             Albuquerque agreed to implement
Substantial Annual Savings Could be                 the recommendation to conduct the study,
Achieved by Exploring Alternative                   but raised technical questions regarding
Weapons Testing Sites                               issues such as environmental permits,
                                                    scheduling flexibility, and cost compo-
        Since the 1950s, the Department             nents. Albuquerque also agreed to reduce
and its predecessor agencies have per-              the cost of Tonopah to the minimum level
formed weapons testing at the Tonopah               necessary and stated that it and Sandia
Test Range (Tonopah). Beginning in the              continued to actively pursue cost reduc-
early 1990s, the number and types of tests          tions at Tonopah. (IG-0418)
at Tonopah declined coincident with vari-
ous international events. These events in-          Controls Over Working Capital Fund
cluded the signing of treaties such as the          Need Strengthening
Intermediate Range Nuclear Force Treaty,
the Strategic Arms Reduction Treaties,                       In July 1996, Congress approved
and the Comprehensive Test Ban Treaty.              the Department’s implementation of the
In addition, some types of tests were               Working Capital Fund (Fund) and directed
transferred to other ranges. Consequently,          the OIG to conduct periodic audits of the
Tonopah is left with only a portion of the          Fund. Accordingly, the OIG conducted an
Department's bomb testing and some                  audit to determine if the Department es-
work-for-others testing.                            tablished an effective system of controls
        During the early 1990’s the De-             over the Fund.
partment’s Albuquerque Operations Office                     The audit disclosed that Fund man-
(Albuquerque) and Sandia National Labo-             agement needs to strengthen controls in
ratories (Sandia), which operate Tonopah            the following areas. First, management
for the Department, explored the alterna-           needs to implement policies and proce-
tive of testing elsewhere. Some of the              dures to periodically compare actual costs
data gathered by Albuquerque and Sandia             to estimates used as a basis of customer
indicated that testing at another range             billings. Second, management needs to
would be practical and economical.                  establish policies and procedures address-
        An OIG audit, which followed up             ing funding excesses and shortages, and
on the Albuquerque/Sandia studies, indi-            management roles, responsibilities and



                                               15
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


authorities.    Additionally, management             quirements specified in Department Or-
needs to simplify the process for allocating         ders. However, actions taken in Fiscal
the costs of contract audits. Finally, fund          Years 1996 and 1997 by the Department
managers should provide Departmental                 and the management and operating con-
decision-makers information on all costs             tractor had, in effect, increased the funding
associated with managing the fund.                   for discretionary research work conducted
        Management generally concurred               at Livermore by $19 million annually. The
with the findings and recommendations                Department’s research programs absorbed
and is planning corrective actions. (CR-B-           those expenses.
98-01)                                                        This increased level of discretion-
                                                     ary research was primarily obtained at the
Audit Discloses Weaknesses in the                    expense of Department directed research.
Management of Laboratory Directed                    The audit identified several factors for the
Research and Development Program                     increased level of funding for discretionary
                                                     research. For example, the Department
        Since their establishment, the De-           directed that its laboratories not add a
partment’s national laboratories have been           charge for general and administrative ex-
permitted to conduct a limited amount of             penses to Fiscal Year 1997 LDRD proj-
discretionary research activities. Over the          ects. The Department also permitted both
years, these activities have been referred to        the requesting and performing laboratory
under various names such as special                  to assess LDRD charges on intra-
studies, exploratory studies, discretionary          Departmental requisition projects. This, in
research and development, and currently,             effect, doubled the LDRD assessment on
Laboratory Directed Research and Devel-              these efforts. In addition, the Department
opment (LDRD). The Department’s De-                  allowed the contractor to fund a supple-
fense Programs laboratories, such as the             mentary discretionary research program at
Lawrence Livermore National Laboratory               Livermore.      Finally, Congress enacted
(Livermore), which is operated for the               legislation that permitted the laboratories
Department under contract with the Uni-              to use a portion of license and royalty fees
versity of California, fund LDRD pro-                for discretionary research.
grams by charging their total laboratory                      The OIG recommended that De-
operating and capital equipment budgets a            partment management analyze the impact
flat surcharge of up to 6 percent of the             of the actions discussed in the OIG report
congressionally mandated ceiling.                    and determine if the level of discretionary
        The OIG audited the LDRD pro-                research at Livermore and other Defense
gram at Livermore to determine whether it            Programs laboratories is appropriate and
was managed in accordance with applica-              permits the Department to accomplish its
ble laws and regulations. The audit dis-             congressionally-mandated mission.
closed that the Department and Livermore                      Department management con-
systems to select and manage LDRD proj-              curred with the audit recommendation.
ects were in general compliance with re-             (CR-B-98-02)




                                                16
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


The Department Needs to Establish an                 water storage tanks. The Operations Of-
Effective Plan for Disposing of Surplus              fice could have funded the project out of
Contaminated Facilities                              its unobligated FY 1996 operating funds
                                                     that were returned to Headquarters at the
         In 1988, the Department changed             end of the fiscal year.
the mission at the Savannah River Site                        The OIG recommended that De-
(Site) from producing nuclear materials to           partment management: (l) compile and
managing the waste products generated.               maintain a list of all deactivation and de-
As a result, many site facilities became             contamination activities which are neces-
surplus to the Department’s needs. West-             sary prior to the disposal of surplus facili-
inghouse Savannah River Company                      ties at the Site; (2) establish Site-wide pri-
(Westinghouse) manages the Department’s              orities for the deactivation, decontamina-
operations at the Site. In Fiscal Year               tion, and disposal of surplus facilities at
1996, the Site had 162 surplus facilities            the Site in accordance with Departmental
and anticipated that 118 more would be-              Order 5820.2A; and (3) annually request
come surplus within the next 5 years. The            from the Department sufficient funding to
OIG conducted an audit to determine                  implement an effective deactivation, de-
whether the Savannah River Operations                contamination and disposal plan.
Office (Operations Office) and Westing-                       Department management con-
house had economically and promptly de-              curred with the finding and recommenda-
activated, decontaminated, and disposed of           tion and initiated corrective action. (ER-
surplus facilities. Until facilities are dis-        B-98-01)
posed of, they require surveillance and
maintenance to manage safety and health              Audit Finds Construction of New Labo-
risks.                                               ratories May Not be Needed
         Westinghouse had disposed of only
one facility and did not completely deacti-                  The Department’s Environmental
vate or decontaminate any of the 162 fa-             Monitoring and Health Physics Laborato-
cilities identified as surplus at the Site in        ries at the Savannah River Site (Site) are
FY 1996. This occurred because the Op-               over 40 years old and are approaching the
erations Office did not compile a Site-wide          end of their useful lives. The management
list to identify the activities which were           and operating contractor, Westinghouse
necessary prior to the disposal of surplus           Savannah River Company (Westinghouse),
facilities, establish priorities, or provide         and the Savannah River Operations Office
sufficient funding for the deactivation, de-         (Operations Office) proposed to build two
contamination, and disposal of surplus               new facilities to replace them.
facilities. As a result, the Department in-                  Department and Federal regula-
curred unnecessary costs for the surveil-            tions require that the Department examine
lance and maintenance of surplus facilities.         all options before acquiring new facilities
The Department could have avoided an-                to ensure that funds and existing facilities
nual surveillance and maintenance costs of           are used effectively. An OIG audit de-
about $1.3 million by spending $1.2 mil-             termined that alternatives to on-site con-
lion to deactivate the P-Reactor process-            struction were not fully evaluated before
                                                     Westinghouse proposed and the Opera-


                                                17
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


tions Office approved construction of new          Audit Finds Acquisition of New Facility
environmental monitoring and physics               to be Unnecessary and Not Cost Effec-
laboratories. Specifically, Westinghouse           tive
did not perform life-cycle cost analyses or
periodically reassess construction projects                In 1991, Lockheed Martin Energy
to determine the most cost-effective alter-        Systems (Energy Systems) identified the
native, as required by Department and              need for new bioassay and environmental
Federal regulations. Despite these re-             sampling laboratories to meet increasing
quirements, the Operations Office ap-              workload and staffing requirements. En-
proved plans to construct these laborato-          ergy Systems proposed, and the Depart-
ries without ensuring that Westinghouse            ment approved, a solicitation for a private
had properly performed the required                company to construct a facility, Union
analyses. As a result, the Department              Valley Sample Preparation Facility
planned to spend at least $30 million to           (UVSPF), which Energy Systems would
build laboratories that may not be needed.         lease back on behalf of the Department.
Based on current cost and pricing data, the                The OIG audited the cost effec-
OIG determined that the Department                 tiveness and necessity of acquiring the fa-
could save $25 million over the life of the        cility. The audit disclosed that Energy
project by contracting the environmental           Systems did not base the UVSPF acquisi-
monitoring activities to outside vendors.          tion on valid mission requirements. En-
        The OIG recommended that the               ergy Systems did not follow Departmental
Department: (1) direct Westinghouse to             procedures in planning and developing the
perform cost and benefit analyses to de-           lease, and the Department approved the
termine whether constructing the new en-           lease without adequate justification. As a
vironmental monitoring and health physics          result, the Department planned to spend
laboratories is more beneficial than con-          between $4 million and $18.9 million to
tracting out those activities; and (2) de-         lease a facility that was not necessary.
velop procedures to ensure that future             Contrary to Federal regulations, Energy
validation of construction projects at the         Systems restricted the facility’s location to
Savannah River Site include a thorough             an approximate 16-square-mile area with-
evaluation of all viable alternatives.             out establishing a programmatic need for
        Management did not concur with             the restriction. This restriction gave an
Recommendation l, but did concur with              Energy Systems’ subcontractor a competi-
Recommendation 2. Management is re-                tive advantage over other potential bidders
considering its position on Recommenda-            and may have caused the Department to
tion 1 and a decision is pending. (ER-B-           pay more than necessary for the facility.
98-02)




                                              18
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


         The OIG recommended that De-                          The OIG identified the following
partment management: (1) direct Energy                 conditions that called into question the
Systems to follow Department policies and              amount of labor effort and expenditures
procedures and base acquisitions of prop-              incurred on the 20 Princeton agreements:
erty on valid mission requirements and an
analysis of all viable alternatives; (2) direct        • The OIG could not distinguish be-
project managers to follow Department                    tween work performed by Princeton
orders and require approvals of construc-                employees and work performed by the
tion projects and property leases to include             commercial business. Both Princeton
(a) verification that the projects are essen-            and the commercial business had some
tial to meet mission requirements and (b)                agreements, in the same specialized
an analysis of all viable alternatives; (3)              field, funded by the same Federal
direct Energy Systems to give the required               agencies and procurement offices. The
365-day notice and discontinue the lease;                distinction between work at Princeton
and (4) direct Energy Systems to discon-                 and the commercial business was fur-
tinue the practice of restricting the location           ther obscured because one individual
of facilities acquired or leased on the De-              worked on the research effort and su-
partment’s behalf unless the restrictions                pervised staff at both Princeton and the
are justified to meet mission requirements.              commercial business.
         Department management did not
concur with the recommendation to direct               • Extensive violations of Princeton’s
Energy Systems to discontinue the lease,                 policy on outside paid professional ac-
but concurred with the other recommen-                   tivities had occurred. At various times
dations. The OIG has asked management                    during the audited agreements, the
to reconsider its position and a decision is             principal investigators and 14 other
pending. (ER-B-98-03)                                    Princeton professional employees as-
                                                         signed to the agreements worked for a
Audit Discloses Violations in the Use of                 commercial business.
Government-Funded Agreements
                                                       • Princeton’s policy on nepotism had
        The Defense Contract Audit                       been violated. Princeton’s policy pro-
Agency advised the OIG that several Prin-                hibited employees from initiating or
ceton employees, including two principal                 participating in decisions that resulted
investigators, also worked for a commer-                 in a direct benefit to those related by
cial business. These two principal investi-              blood or marriage. Princeton claimed
gators were responsible for 28 Govern-                   salary and wage costs of $16,960 for
ment-funded agreements at Princeton be-                  an hourly employee who was also a
tween October 1, 1986, and December 31,                  member of the principal investigator’s
1996. Consequently, the OIG initiated an                 immediate family.
audit of the allowability of $19 million in
costs claimed for 20 of the 28 cost reim-
                                                       • Princeton’s support for direct labor
bursement agreements assigned to the two
                                                         effort was not adequate because Prin-
principal investigators.



                                                  19
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


   ceton did not always have timely after-                  The Department’s contractors did
   the-fact activity reports.                       not always use the most favorable rates
                                                    available.    Although volume discounts
        The OIG recommended that De-                were available under Departmentwide
partment management furnish the audit               contracts, two of the Department’s con-
results to the contracting officers respon-         tractors awarded subcontracts to Enviro-
sible for the agreements audited and en-            care with rates that were higher than the
sure that Princeton implements corrective           Departmentwide rates. This occurred be-
actions to address the conditions identified        cause the Department did not require con-
in the audit. The OIG also recommended              tractors to use the most favorable rates
that the contracting officers recover costs         available. As a result, the Department in-
that they determine to be unallowable.              curred unnecessary costs to dispose of
Additionally, the OIG recommended that              contaminated waste. During the audit, one
Department management alert procure-                of the contractors reopened negotiations
ment offices responsible for the agree-             with Envirocare and obtained a lower rate,
ments audited that some individuals were            thereby saving the Department about $3.2
being funded on a full-time or nearly full-         million over the next 3 years.
time basis at more than one entity.                         During the audit, several legal is-
        Department management agreed to             sues arose involving the owner of Enviro-
ensure that Princeton University imple-             care and a former state official in the Utah
ments corrective actions to address the             Department of Environmental Quality,
conditions identified in this report. In            Division of Radiation Control. In re-
addition, Department management agreed              sponse to these issues, the Department and
to alert the responsible procurement of-            Envirocare signed an agreement whereby
fices. (ER-B-98-04)                                 the owner of Envirocare resigned and will
                                                    have no role in the management and con-
Department Incurs Unnecessary Costs                 trol of the company until the legal issues
in Disposing of Contaminated Waste                  are resolved.
                                                            The OIG recommended that the
        The Department is responsible for           Deputy Assistant Secretary for Environ-
protecting human health and the environ-            mental Restoration distribute a list of
ment by providing an effective and effi-            available Departmentwide contracts and
cient system that treats, stores, and dis-          rates and direct field activities to require
poses of contaminated waste at Depart-              all contractors to use the most favorable
ment sites across the nation. The Depart-           rates available to the Department for
ment disposes of some of its contaminated           treating and disposing of waste.
waste at Envirocare of Utah, Inc.                           Department management con-
(Envirocare), a commercial treatment and            curred with the finding and recommenda-
disposal facility in Clive, Utah. The OIG           tion and initiated appropriate corrective
performed an audit to determine whether             action. Such action included establishing
the Department and its contractors were             a Center for Excellence for low-level and
using the most favorable rates available for        mixed low-level waste, which will function
disposing of waste at Envirocare.                   as a “clearinghouse” for information and



                                               20
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


provide a single point of contact for De-           ment of radioactive liquid waste. (WR-B-
partment field offices. (ER-B-98-05)                98-01)

Alternative Radioactive Liquid Waste                Deficiencies in Unsolicited Proposal
Treatment Operations Could Result in                Review Process
Substantial Savings
                                                            The OIG received an allegation
        The University of California oper-          that actions by a senior Department official
ates the Los Alamos National Laboratory             may have compromised the Department’s
(Los Alamos) for the Department. An                 unsolicited proposal review process. Al-
OIG audit disclosed that Los Alamos’                legedly, these actions occurred during the
costs to treat radioactive liquid wastes            review of an unsolicited proposal from
were significantly higher than similar pri-         Chevron for the management and opera-
vate sector costs. This situation occurred          tion of the Department’s Elk Hills Naval
because Los Alamos did not perform a                Petroleum Reserve (Elk Hills).
complete analysis of privatization or pre-                  The OIG initiated a review to de-
pare a “make-or-buy” plan for its treat-            termine whether the Department handled
ment operations, although a “make-or-               the review of the Chevron unsolicited pro-
buy” plan requirement was incorporated              posal according to the requirements of
into the contract in 1996. As a result, Los         DOE Order 4210.9A, “UNSOLICITED
Alamos may be spending $2.15 million                PROPOSALS.” The inspection found that
more than necessary each year and could             the Department’s review of the Chevron
needlessly spend $10.75 million over the            unsolicited proposal proceeded according
next 5 years to treat its radioactive liquid        to the requirements of the Order. How-
waste. Additionally, Los Alamos pro-                ever, the inspection found administrative
posed to spend an estimated $13 million to          deficiencies in the processing of required
construct a new processing facility, replac-        documents during the review process.
ing the 30-plus-year-old treatment facility.        Specifically, none of the officials involved
        The OIG recommended that De-                in the proposal process executed a re-
partment management: (1) require Los                quired conflict of interest form. Addi-
Alamos to prepare a “make or buy” plan              tionally, two senior Department officials
for its radioactive liquid waste treatment          involved in the review process did not
operations; (2) review the plan for ap-             execute the required procurement integrity
proval; and (3) direct Los Alamos to select         form. Further, the inspection disclosed
the most cost effective method of opera-            that timely written approval from the Di-
tions while also considering other factors          rector, Office of Clearance and Support,
such as mission support, reliability, and           was not obtained once the proposal was
long-term program needs.                            held beyond the 6-month time frame
        Department management con-                  specified in the Order. As a result, De-
curred with the recommendations and                 partment negotiators requested retroactive
agreed to take corrective actions to im-            approval to hold the unsolicited proposal
prove the cost effectiveness of the treat-          for an extended period.




                                               21
OIG STRATEGIC GOAL NO. 2:                       Conduct performance reviews which promote the
efficient and effective operation of the Department’s business lines.


        The OIG recommended that the                and (3) ensure that advanced written ap-
Department take the following action: (1)           proval, as specified in DOE Order
revise DOE Order 4210.9A, to include an             4210.9A, is provided by the Director of
example of a Conflict of Interest form, and         the Office of Clearance and Support,
take appropriate actions to ensure that this        should the need arise to hold future unso-
form and the Procurement Integrity Certi-           licited proposals beyond the allowed 6-
fication form are completed at the appro-           month time frame.
priate times during future unsolicited pro-                 Department management con-
posal reviews; (2) revise DOE Order                 curred with the OIG recommendations and
4210.9A to require written approval by the          took corrective actions to improve the un-
Director of the Office of Clearance and             solicited proposal review process. (INS-
Support to stop an unsolicited proposal             O-98-01)
evaluation and to begin direct negotiations
with the submitter of the proposal;




                                               22
OIG STRATEGIC GOAL NO. 3:                      Conduct investigations to enhance the credibility
of the Department and integrity of its business lines by aggressively pursuing fraud, waste, and
abuse, and reporting on those engaged in such practices.


During this reporting period, the OIG completed the following investigative cases to conform to
the goals, objectives, and performance measures outlined in the OIG’s 5-year Strategic Plan.

Investigation Leads to Conviction of                reviewed existing material control proce-
Subcontractor Employees and Identi-                 dures and implemented procedures to
fies Deficiencies in Property Account-              prevent further thefts. The subcontractor
ability System                                      paid the Department $19,000 in costs in-
                                                    curred as a result of the thefts. The sub-
         While reviewing invoices at a              contractor dismissed both employees.
scrap dealer, OIG agents discovered that            The Department debarred the two em-
two supervisory employees of an Oak                 ployees from Government contracting for
Ridge Operations Office subcontractor,              3 years. (I95OR029)
performing a demolition project at the
Department’s K-25 facility in Oak Ridge,            A Department Contractor Employee at
had stolen 10 and one-half tons of copper.          the Los Alamos National Laboratory
         The investigation determined that          Submits False Small Purchase Reim-
the employees sold one load of copper to            bursement Claims
a metals dealer for over $25,000 in cash
and attempted to sell a second load of                      The OIG received an allegation
copper valued at $19,755. OIG agents                from a Department contractor that a Los
intervened, and recovered stolen copper             Alamos National Laboratory (LANL)
valued at over $44,000, along with the              contractor employee submitted fraudulent
$25,000 in cash that the metals dealer              Small Purchase Reimbursement (SPR)
paid for the first load of stolen copper.           claims to LANL. The SPR program al-
         As a result of the investigation,          lows LANL employees to use personal
the U.S. Attorney’s Office, Eastern Dis-            funds to purchase work-related materials
trict of Tennessee, accepted the case for           costing $500 or less. Employees may
prosecution. Both employees pleaded                 submit a SPR claim with the purchase re-
guilty to one count of conspiracy. One              ceipt and receive prompt reimbursement
employee was sentenced to 8 months in-              from LANL.
carceration and 3 years supervised proba-                   The contractor’s Internal Evalua-
tion, and was ordered to pay $1,181 in              tion Branch assisted the OIG during the
restitution. The second employee was                investigation. The investigation deter-
sentenced to 3 years supervised probation           mined that the employee submitted 69
and ordered to pay $4,591 in restitution.           false SPR claims to LANL and received
         The investigation also identified          full reimbursement. The employee had
deficiencies in the Department’s contrac-           fabricated the invoices and submitted
tor safeguards and property accountability          them to LANL. In addition to the false
system that contributed to the theft. As a          invoices, the employee submitted one
result of OIG Administrative Reports to             false travel voucher to LANL. The OIG
Management, the Department took sev-                referred the investigation to the U.S. At-
eral corrective actions for positive                torney’s Office, District of New Mexico,
change. The contractor’s management                 where it was accepted for prosecution.


                                               23
OIG STRATEGIC GOAL NO. 3:                      Conduct investigations to enhance the credibility
of the Department and integrity of its business lines by aggressively pursuing fraud, waste, and
abuse, and reporting on those engaged in such practices.


Following a guilty plea of two counts of            management took the following actions:
submitting false claims, the employee was           (1) the employee received a written letter
sentenced to 5 years probation and 6                of reprimand in which the contractor re-
months electronic monitoring, and                   quired the employee to reimburse the
ordered to pay $34,342 in restitution.              laboratory $7,500 and attend special eth-
       As a result of an OIG Administra-            ics training; and (2) the contractor identi-
tive Report to Management, the Depart-              fied a need to strengthen the laboratory's
ment’s contractor dismissed the em-                 ethics program. (I97PT004)
ployee. (I96AL010)
                                                    Los Alamos National Laboratory Ex-
Department Contractor Employee                      ports Software to Russia and China
Gains Personal Financial Benefit and                Without Required Export Licenses
Accepts Gratuities
                                                            The U.S. Department of Com-
        Following a referral from Depart-           merce, Office of Export Enforcement,
ment management, an OIG investigation               informed the OIG that the Department’s
disclosed that a contractor employee at             Los Alamos National Laboratory (LANL)
the Brookhaven National Laboratory: (1)             violated regulations by exporting software
used images taken with Government-                  to Russia and China without obtaining the
owned high tech photography equipment               proper export licenses from the U.S. De-
for personal benefit; (2) failed to report          partment of Commerce.
outside business activities; and (3) ac-                    Working jointly with the Office of
cepted gratuities from laboratory vendors.          Export Enforcement, the OIG determined
        The investigation determined that           that LANL signed a noncommercial re-
the employee used these images for per-             search software agreement with four dif-
sonal financial gain by submitting them to          ferent research institutes in Russia and
a photo stockhouse which maintains an               China. Subsequent to signing the agree-
image bank for magazines. The employee              ment, the software was electronically
received a commission whenever a photo              transmitted to each institution via the In-
was used. He also entered and won                   ternet.
photography competitions using the im-                      According to the Office of Export
ages. The investigation also determined             Enforcement, regardless of the circum-
that the employee had not reported any of           stances,    U.S. Export Administration
his outside business activities as required         Regulations and licensing requirements
by the contractor’s internal policy. The            must be followed when sending sensitive
investigation further determined that he            software to certain countries. LANL did
had accepted gifts with nominal value               have a general license that allowed it to
from two vendors doing business with the            export the software to certain approved
laboratory. The investigation did not               countries, but not to Russia and China.
disclose favoritism by the employee to-             The investigation showed that required
wards these vendors.                                licenses had not been obtained prior to the
        In response to an OIG Adminis-              software transfer.
trative Report to Management, contractor


                                               24
OIG STRATEGIC GOAL NO. 3:                      Conduct investigations to enhance the credibility
of the Department and integrity of its business lines by aggressively pursuing fraud, waste, and
abuse, and reporting on those engaged in such practices.


        An OIG Administrative Report to             Alamos Area Office intentionally accessed
Management        recommended that the              Internet sites containing pornographic
Manager, Albuquerque Operations Office,             material. As a result of an OIG Adminis-
take appropriate action regarding the im-           trative Report to Management, the De-
proper export of the software. The OIG              partment took action to suspend the em-
also recommended that Department man-               ployee.
agement implement procedures to prevent                      A third investigation determined
future irregular exports.                           that a Department employee at the Rocky
        The Department’s Albuquerque                Flats Environmental Technology Site
Operations Office manager took correc-              misused a Government-owned computer
tive action. LANL implemented formal-               by accessing pornographic websites and
ized export procedures for software. The            downloading files to his Government
Director, LANL, issued a policy state-              computer. As a result of an OIG Admin-
ment to all employees reaffirming the               istrative Report to Management, the De-
contractor’s commitment to strict adher-            partment took corrective action. The
ence with all U.S. export control laws and          employee was suspended.
regulations. (I98AL001)                                      A fourth investigation involved a
                                                    contractor employee at the Department’s
Government-Owned Computers Being                    Sandia National Laboratory. The em-
Used to Search for Pornography                      ployee admitted that he intentionally ac-
(Including Child Pornography) on the                cessed pornographic sites on the Internet
Internet                                            using his Government-assigned computer.
                                                    The employee also admitted that he
        As a result of referrals from De-           searched for pornographic images of pre-
partment and contractor management, the             teens, which he defined as ages 11-13.
OIG completed four investigations, with             As a result of an OIG Administrative Re-
the assistance of the Department and                port to Management, Department con-
contractor computer security staff, which           tractor management took corrective ac-
substantiated that three Department em-             tion and terminated the employee.
ployees and one contractor employee                 (I98AL004,      I98AL002,      I98DN002,
used Government-owned computers to                  I97AL010)
access and view pornographic images on
the Internet.                                       Department Employee Falsifies Infor-
        One investigation determined that           mation on a Bid Quotation Sheet
a Department employee at the Albuquer-
que Operations Office accessed multiple                     An OIG investigation revealed
Internet sites containing sexually explicit         that a Department employee falsified a
images. As a result of an OIG Adminis-              “Credit Card Telephone Quotation Work-
trative Report to Management, the De-               sheet” to procure $20,000 in training
partment took action to suspend the em-             services. The worksheet outlines assorted
ployee.                                             administrative data about a credit card
        A second investigation determined           purchase, including appropriation and
that a Department employee at the Los


                                               25
OIG STRATEGIC GOAL NO. 3:                      Conduct investigations to enhance the credibility
of the Department and integrity of its business lines by aggressively pursuing fraud, waste, and
abuse, and reporting on those engaged in such practices.


funding codes, a description of services,                   The physician advised that he
and vendor quotations.                              never treated the office manager’s hus-
        The investigation disclosed that            band and that he never charged the office
 the employee provided false information            manager for treatment. A review of the
 to the person who handled the adminis-             claims showed that the insurance pay-
 trative requirements associated with us-           ments were mailed directly to the patients
 ing the credit card. Specifically, the             -- the office manager and her husband --
 employee reported having obtained                  since costs for the services were claimed
 quotes from two companies to provide               to have been already paid by the patients.
 training services to the Department.               The investigation disclosed that the office
 Two quotes are required under procure-             manager had a criminal history for related
 ment regulations. The investigation dis-           health care fraud. The office manager
 closed, however, that one company had              confessed to submitting the false claims
 not provided a bid as the employee                 and subsequently using the money for
 claimed. The employee obtained a quote             personal items. She informed investiga-
 from only one company and subse-                   tors that her husband was not aware she
 quently signed the inaccurate quotation            submitted the claims.
 worksheet.                                                 The OIG referred the investigation
        This matter was declined for                to the U.S. Attorney’s Office, District of
 criminal prosecution in favor of adminis-          Nevada, where it was accepted for prose-
 trative remedies. In response to an OIG            cution. The office manager pleaded guilty
 Administrative Report to Management,               to a felony for filing false, fictitious, and
 Department management removed the                  fraudulent claims against the United
 employee as an approving employee for              States. She was sentenced to 12 months
 credit card purchases. (I96HQ012)                  and 1 day in prison; ordered to pay
                                                    $69,066 in restitution; and, upon comple-
A Private Physician’s Office Manager                tion of her prison term, undergo 3 years
is Convicted of Submitting False                    of supervised release. (I95AL033)
Health Care Claims
                                                    Consultant is Convicted of Tax Eva-
        The OIG received an allegation              sion
from a Department contractor that false
claims were submitted to employee health                    The OIG received information
care insurance providers for the Depart-            from the Oak Ridge Operations Office
ment’s Sandia National Laboratory                   that a consultant to a Department con-
(SNL). The OIG initiated an investiga-              tractor may have falsely billed the con-
tion and substantiated the allegation. The          tractor. The investigation revealed that
office manager for a private physician              the consultant provided a false tax identi-
submitted 66 false claims worth $69,066             fication number to avoid paying taxes on
to two insurance companies for costs as-            substantial sums earned through consult-
sociated with services she claimed she and          ant work for the Department.
her husband received. Her husband is a                      The OIG contacted the IRS and,
retired SNL employee.                               as a result of a joint OIG and IRS investi-


                                               26
OIG STRATEGIC GOAL NO. 3:                      Conduct investigations to enhance the credibility
of the Department and integrity of its business lines by aggressively pursuing fraud, waste, and
abuse, and reporting on those engaged in such practices.


gation, the U.S. Attorney’s Office, Dis-            amended tax returns for the years 1990,
trict of Maryland, accepted the case for            1991, 1993, and 1994 and paid $494,250
prosecution.     The consultant pleaded             in additional taxes and interest. The IRS
guilty to tax evasion and was sentenced to          has assessed the consultant $238,632 in
8 months confinement, 2 years supervised            fraud penalties.
probation, and 200 hours of community                        As a result of OIG Administrative
service; and was ordered to pay a $15,000           Reports to Management, the Department
fine.       The       consultant      filed         debarred the consultant and the company
                                                    from Government contracts and subcon-
                                                    tracts for 3 years, and agreed to review
                                                    the actions of the consultant to determine
                                                    the consultant’s eligibility or continued
                                                    eligibility for a Department security clear-
                                                    ance. (I93OR023)




                                               27
OIG STRATEGIC GOAL NO. 4:                     Conduct inquiries which assist the Department in
fostering public confidence in the Department’s integrity, commitment to fairness, and willing-
ness to take corrective action.


OIG complaints referred to DOE management and other Government agencies, and the review of
existing and proposed Department legislation and regulations conform to the goals, objectives,
and performance measures outlined in the OIG 5-Year Strategic Plan.

Management Referral System
                                                    • Management at a DOE site took action
        The Office of Inspections manages               to improve purchase card policies and
and operates the OIG Management Refer-                  procedures as a result of weaknesses
ral System. Under this system, selected                 identified by an inquiry into alleged
matters received through the OIG Hotline                misuse of the cards.
or other sources are referred to the appro-
priate Department manager or other Gov-
ernment agency for review and appropriate           • Management advised that a contractor
action. The OIG referred 121 complaints                 employee’s comments about the man-
to Department management and other                      agement of high-level waste at a DOE
Government agencies during the reporting                site will be considered as part of the
period. The OIG asked Department man-                   development of an environmental im-
agement to respond concerning the actions               pact statement.
taken on 46 of these complaints. Com-
plaints referred to Department manage-              Contractor Employee Reprisal Com-
ment may include such matters as time and           plaints
attendance abuse, misuse of Government
vehicles and equipment, violations of es-                    The Office of Inspections con-
tablished policy, and standards of conduct          ducted a number of inquiries into contrac-
violations. The following are examples of           tor employee complaints filed pursuant to
the results of referrals to Department man-         10 C.F.R. Part 708. These complaints
agement during this reporting period.               concerned allegations that employees dis-
                                                    closed fraud, waste, abuse, mismanage-
• An allegation about a possible theft of           ment, or health and safety issue informa-
  the proceeds from three sales of scrap            tion or engaged in other activity protected
  metal removed from a DOE site raised              by Part 708 and that the disclosure(s)
  concerns about possible systemic                  contributed to adverse action by contrac-
  problems with site scrap disposal. A              tor management against the employees.
  management inquiry determined that                Inquiries were also conducted into allega-
  the theft did not occur; however,                 tions that the Department’s personnel se-
  shortcomings in site policies and pro-            curity program was used to retaliate
  cedures and their dissemination were              against employees. Fourteen cases were
  identified, and corrective actions were           completed either through dismissal, set-
  taken.                                            tlement by the parties, or issuance of Re-
                                                    ports of Inquiry. In addition, as a stream-
• A DOE employee was counseled as a                 lining initiative, the Office offered the par-
  result of inappropriate use of a Gov-             ties to twelve Part 708 complaints an op-
  ernment computer.                                 portunity to by-pass the inquiry process


                                               28
OIG STRATEGIC GOAL NO. 4:                     Conduct inquiries which assist the Department in
fostering public confidence in the Department’s integrity, commitment to fairness, and willing-
ness to take corrective action.


and go directly to a hearing before the De-         contractor was able to show by clear and
partment’s Office of Hearings and Ap-               convincing evidence that it would have
peals. The parties in two of these com-             taken the actions against the complainant
plaints availed themselves of the oppor-            regardless of whether there had been a
tunity to go directly to a hearing.                 protected disclosure. The report recom-
         The following is an example of the         mended that the employee’s request for
results of the Office’s reprisal inquiries:         relief pursuant to Part 708 be denied.
         A complaint was received from a
contractor employee who alleged that he                           Legislative Review
made disclosures regarding improper stor-
age of excess property to his management                    In accordance with the Inspector
and the OIG. The complainant alleged                General Act of 1978, the OIG is required
that as a result of making these disclo-            to review existing and proposed legisla-
sures, he was reassigned to a less desirable        tion and regulations relating to Depart-
job and subsequently terminated. The                ment programs and operations, and to
contractor asserted that the employee was           comment on the impact which they may
reassigned due to organizational require-           have on economical and efficient opera-
ments, and terminated because he had                tions of the Department. During this re-
falsified timecard information and subse-           porting period, the OIG coordinated and
quently lied to management. The OIG in-             reviewed 13 legislative and regulatory
quiry concluded that the employee had not           items. The OIG also participated with the
made a disclosure nor engaged in activities         IG community in commenting on draft
protected by Part 708, and that the                 legislation to protect intelligence agency
                                                    employees who report concerns involving
                                                    classified information.




                                               29
   SUMMARY OF PROGRESS IN ACCOMPLISHING OIG
               STRATEGIC GOALS


OIG Strategic Planning Accomplish-                   demonstrate improved stewardship of
ments                                                public resources.
                                                              The performance measures defin-
        The planning of OIG work sup-                ing the achievement of the objectives are:
ports the goals, objectives, and strategies          (1) to complete required financial state-
outlined in the OIG’s 5-year Strategic               ment audits by due dates designated in
Plan. The OIG organizes and prioritizes              law; (2) to opine annually on the Depart-
its workload to ensure that audits, inspec-          ment’s consolidated financial statements,
tions, and investigations help the Depart-           system of internal controls, and compli-
ment in enhancing the overall performance            ance with laws and regulations; (3) to co-
of its core business lines (Energy Re-               ordinate with Department management
sources, National Security, Environmental            and other interested parties to identify and
Quality, and Science and Technology).                prioritize audit opportunities each fiscal
Several key external factors affect the              year; (4) to complete at least 60 percent of
OIG’s achievement of its goals and objec-            audits planned for the year and replace
tives. These factors have significant im-            those audits not started with more signifi-
pact on assigning workload, formulating              cant audits which identify time-sensitive
budgets, assessing organizational struc-             issues needing review; (5) to achieve an 85
ture, evaluating procedures and establish-           percent acceptance rate on recommenda-
ing priorities. These factors include nu-            tions made in audit reports, thereby allow-
merous mandatory, statutory, and regula-             ing DOE managers to take corrective, cost
tory requirements, and taskings from ex-             saving, or recoupment action(s); and (6) to
ternal sources.                                      devote at least 10 percent of available re-
        During this Semiannual reporting             sources to subsequent reviews of areas to
period, the OIG worked diligently toward             determine if the Department’s commitment
achieving its strategic goals and objectives.        to the acceptance of previous recommen-
A summary of the OIG’s progress in ac-               dations has resulted in implementation of
complishing its strategic goals follows.             corrective actions.
                                                              OAS set another goal of conduct-
        The Office of Audit Services                 ing performance reviews which promote
(OAS) set a goal to conduct statutorily              the efficient and effective operation of the
required audits of the Department to en-             Department’s business lines. The objec-
able the public to rely on DOE’s financial           tive was to focus performance reviews on
and management systems. The objectives               those issues and programs having the
in meeting that goal are: (1) to complete            greatest potential for the protection or re-
audits required by the Chief Financial Offi-         covery of public resources.
cers (CFO) Act and the Government Man-                        The performance measures defin-
agement Reform Act (GMRA), and other                 ing the achievement of the objective are:
audits by established due dates to enable            (1) to complete reviews of key programs,
the Department to improve its fiscal in-             identifying areas with weaknesses or
tegrity; and (2) to identify and report sig-         problems where resources are at risk; (2)
nificant systems’ deficiencies, enabling the         to recommend actions for the Department
Department to take corrective action and             to diminish or alleviate the risks identified


                                                33
  SUMMARY OF PROGRESS IN ACCOMPLISHING OIG
              STRATEGIC GOALS


in these reviews; and (3) to achieve an 85                  The Office of Investigations is well
percent acceptance rate on recommenda-              on its way to achieving its goal and objec-
tions made in performance review reports,           tives. During this reporting period, 73
thereby allowing Department managers to             percent of cases presented for prosecution
take corrective, cost saving, recoupment            were accepted, and 24 percent of the cases
or disciplinary action(s).                          opened were joint agency/task force in-
        During the first half of the year,          vestigations, as compared to last year’s 19
OAS completed the audit of the consoli-             percent.
dated statements of the Department on                       The Office of Investigations made
time, and rendered an opinion on the fi-            a personnel resource commitment with
nancial statements, the system of internal          regard to increased work with the De-
controls, and compliance with laws and              partment of Justice (DOJ). For example,
regulations. With half of the year gone,            the Office of Investigations is currently
OAS is meeting its objectives in audit re-          working with DOJ on 18 qui tam cases.
ports issued and in recommendations ac-             Additionally, the Office of Investigations
cepted.                                             successfully increased its efforts and re-
                                                    sources applied toward the Affirmative
        The Office of Investigations set a          Civil Enforcement Program, which is de-
goal to conduct investigations to enhance           signed as a highly efficient vehicle for IGs
the credibility of the Department and the           and U.S. Attorneys to work together to
integrity of its business lines by aggres-          combat fraud against the Government.
sively pursuing fraud, waste, and abuse,            The U.S. Attorney, District of New Mex-
and reporting on those engaged in such              ico, recently commended the Office of In-
practices. The objectives in meeting that           vestigations for its “willingness to work
goal were: (1) to focus investigations on           closely with the civil division of the U.S.
allegations of serious violations of Federal        Attorney’s Office” and for its “overall
law to permit successful prosecutions that          grasp of the potential of civil fraud actions
maximize the recovery of public resources           in addition to criminal actions.”
and the deterrence of future wrongdoing;
and (2) to increase inter-agency coopera-                    The Office of Inspections estab-
tive efforts to combat fraud, waste, and            lished a goal to conduct performance re-
abuse.                                              views which promote the efficient and ef-
        The performance measures defin-             fective operation of the Department’s
ing the achievement of the objectives               business lines. One objective under this
were: (1) to gain acceptance of 75 percent          goal is to prevent violations of public trust
of cases presented for prosecution, thus            by conducting oversight of DOE’s intelli-
permitting prosecutors to pursue maxi-              gence programs. A performance measure
mum monetary recovery from, and pun-                for this objective is to provide the Intelli-
ishment of, wrongdoers; and (2) to in-              gence Oversight Board (IOB) with re-
crease joint agency/task force activity by          quired quarterly reports of OIG intelli-
10 percent, affording the opportunity to            gence oversight activity to increase confi-
protect and deter criminal activity while           dence that Departmental intelligence ac-
maximizing resource use efficiency.                 tivities are conducted appropriately. An-


                                               34
   SUMMARY OF PROGRESS IN ACCOMPLISHING OIG
               STRATEGIC GOALS


other objective under this goal is to focus            sel to the IOB on the intelligence oversight
performance reviews on those issues and                activities of the OIG. The Office also
programs having the greatest potential for             achieved a 100 percent acceptance rate on
the protection or recovery of public re-               recommendations made in performance
sources. A performance measure for this                reviews and has initiated additional re-
objective is to achieve an 85 percent ac-              views that are expected to have significant
ceptance rate on recommendations.                      recommendations about, among other
         The Office of Inspections also es-            things, Departmental contracting and
tablished a goal to conduct inquiries which            worker safety.
assist the Department in fostering public                       The Office of Inspections is also
confidence in the Department’s integrity,              taking action to reduce the number of days
commitment to fairness, and willingness to             to process reprisal complaints by focusing
take corrective action. One objective un-              resources on investigating whistleblower
der this goal is to conduct inquiries into             allegations. It should be noted that the
contractor employee whistleblower repri-               Department published a “Notice of Pro-
sal allegations to enhance public trust by             posed Rule Making” that proposed
fostering an open, non-retaliatory envi-               amendments to Part 708, Title 10, Code of
ronment throughout the Department. The                 Federal Regulations, DOE Contractor
performance measure for this objective is              Employee Protection Program. The De-
to decrease the average number of days to              partment is currently evaluating comments
process whistleblower reprisal cases by 5              on the proposed notice. The final notice is
percent.                                               expected to significantly impact the Part
         During the first half of the year, the        708 process and may impact the related
Office of Inspections issued three quarterly           objective and performance measure.
intelligence reports and briefed the Coun-




                                                  35
                   OIG MISSION AND ADMINISTRATION

                       Mission                                     grams and operations administered or financed
                                                                   by the Department of Energy, to recommend
     The Office of Inspector General (OIG) operates                corrective action concerning such problems,
under the Inspector General Act of 1978, as                        abuses, and deficiencies, and to report on the
amended, with the following responsibilities:                      progress made in implementing such corrective
                                                                   action.
♦   To provide policy direction for, and to conduct,
    supervise, and coordinate audits and investiga-            ♦   To provide a status of the number of unreason-
    tions relating to the programs and operations of               able refusals by management to provide data to
    the Department.                                                the OIG. There were no such instances this re-
                                                                   porting period.
♦   To review existing and proposed legislation and
    regulations relating to programs and operations                         Organization and Staffing
    of the Department, and to make recommenda-
    tions in the semiannual reports required by the                  The activities of the OIG are performed by four
    Inspector General Act of 1978 concerning the               offices.
    impact of such legislation or regulations on the                 The Office of Audit Services provides policy
    economy and efficiency in the administration of            direction and supervises, conducts, and coordinates
    programs and operations administered or fi-                all internal and contracted audit activities for De-
    nanced by the Department, or on the prevention             partment programs and operations. Audits are
    and detection of fraud and abuse in such pro-              planned annually through a prioritized work plan-
    grams and operations.                                      ning strategy that is driven by several factors, includ-
                                                               ing the flow of funds to Departmental programs and
♦   To recommend policies for, and to conduct, su-             functions, strategic planning advice, statutory re-
    pervise, or coordinate other activities carried out        quirements, and expressed needs. The Office of
    or financed by the Department for the purpose              Audit Services has been organized into three re-
    of promoting economy and efficiency in the                 gional offices, each with field offices located at ma-
    administration of, or preventing and detecting             jor Department sites: Capital Regional Audit Office,
    fraud and abuse in, its programs and operations.           with field offices located in Washington, DC, Ger-
                                                               mantown, and Pittsburgh; Eastern Regional Audit
♦   To recommend policies for, and to conduct, su-             Office, with field offices located in Cincinnati, Chi-
    pervise, or coordinate relationships between the           cago, Oak Ridge, Princeton, and Savannah River;
    Department and other Federal agencies, state,              and Western Regional Audit Office, with field of-
    and local government agencies, and nongov-                 fices located in Albuquerque, Denver, Idaho Falls,
    ernmental entities with respect to:                        Las Vegas, Livermore, Los Alamos, and Richland.
                                                                     The Office of Investigations performs the
        ◊    All matters relating to the promotion of          statutory investigative duties which relate to the
             economy and efficiency in the admini-             promotion of economy and efficiency in the admini-
             stration of, or the prevention and de-            stration of, or the prevention or detection of fraud or
             tection of fraud and abuse in, programs           abuse in, programs and operations of the Depart-
             and operations administered or fi-                ment. Priority is given to investigations of apparent
             nanced by the Department.                         or suspected violations of statutes with criminal or
                                                               civil penalties, including investigations of contract
        ◊    The identification and prosecution of             and grant fraud, environmental violations, and
             participants in such fraud or abuse.              matters which reflect on the integrity and suitability
                                                               of Department officials. Suspected criminal viola-
♦   To keep the Secretary of the Department of En-             tions are promptly reported to the Department of
    ergy and the Congress fully and currently in-              Justice for prosecutive consideration. The Office is
    formed, by means of the reports required by the            organized into four regions with field and satellite
    Inspector General Act of 1978, concerning fraud            offices within each region. The four regions and
    and other serious problems, abuses and defi-               corresponding offices are: Northeast Regional Field
    ciencies relating to the administration of pro-            Office in Washington, DC, with satellite offices in



                                                          39
                   OIG MISSION AND ADMINISTRATION

Pittsburgh and Cincinnati; Southeast Regional Field                      Inspector General Priorities
Office in Oak Ridge, with a satellite office in Savan-
nah River; Northwest Regional Field Office in Den-                 The OIG takes a realistic view of its available
ver, with satellite offices in Richland, Idaho Falls,         resources and uses them as efficiently and effectively
and Chicago; and the Southwest Regional Field Of-             as possible. Areas where we are focusing these re-
fice in Albuquerque, with a satellite office in Liver-        sources include:
more. The Office of Investigations also operates the
Inspector General Hotline.                                    ♦   Audit of the Department’s consolidated finan-
      The Office of Inspections performs inspec-                  cial statements as required by the Government
tions and analyses, including reviews based on ad-                Management Reform Act of 1994.
ministrative allegations. In addition, the Office in-
vestigates contractor employee allegations of em-             ♦   Review of the Department’s implementation and
ployer retaliation, pursuant to Department of Energy              execution of the requirements of the Govern-
Contractor Employee Protection Program (10                        ment Performance and Results Act of 1993.
C.F.R. Part 708) or Section 6006 of the Federal Ac-
quisition Streamlining Act of 1994. The Office also           ♦   Review of Department “high risk” areas, such as
processes referrals of administrative allegations to              laboratory management, contract management
Department management. The Office of Inspections                  (specifically, performance-based contracting),
includes two regional offices. The Eastern Regional               national security, safety and health, work force
Office is located in Oak Ridge, with a field office in            restructuring, economic development, and envi-
Savannah River. The Western Regional Office is                    ronmental remediation.
located in Albuquerque, with a field office in Liver-
more.                                                         ♦   Conduct of performance reviews at several ma-
      The Office of Resource Management directs                   jor Department facilities, such as Lawrence
the development, coordination, and execution of                   Livermore and Lawrence Berkeley National
overall OIG management and administrative policy                  Laboratories, with annual obligations of about
and planning. This responsibility includes directing              $1.4 billion.
the OIG’s strategic planning, financial management,
personnel management, procurement, and informa-
tion resources programs. In addition, staff members
from this Office represent the Inspector General at
budget hearings, negotiations, and conferences on
financial, managerial, and other resource matters.
The Office also coordinates activities of the Presi-
dent’s Council on Integrity and Efficiency. The Of-
fice is organized into three offices: Financial Re-
sources, Human Resources, and Information Re-
sources, all located in Washington, DC.




                                                         40
                   OIG MISSION AND ADMINISTRATION

♦   Emphasis on complex criminal and civil inves-             were responded to in a timely manner. The Office
    tigations, targeting those matters with the great-        testified at two Congressional hearings before the
    est potential for prosecution and/or civil recov-         Oversight and Investigations Subcommittee of the
    ery, such as contract and grant fraud, and envi-          House Energy Committee. The Inspector General
    ronmental violations.                                     testified on these occasions on two extremely signifi-
                                                              cant matters, Department laboratory management
♦   Assistance to Departmental effort to ensure that          and performance-based contracting. Additionally,
    the mission critical computer systems of the De-          OIG staff provided briefings to Committee staff on
    partment and its contractors are Year 2000                four occasions and data or reports were provided to
    compliant.                                                the Congress in 63 instances.
.
             Congressional Requests

     During the reporting period, the OIG received
47 requests for data from the Congress, all which




                                                         41
                   REPORTS ISSUED


                       AUDIT REPORTS

                 CONTRACT AUDIT REPORTS

ER-C-98-01   Final Audit of Princeton University’s Costs Claimed for Sub-
             contractor XR-11265-1 Under National Renewable Energy
             Laboratory’s Department of Energy Contract DE-AC02-
             83CH10093, November 3, 1997


               OPERATIONAL AUDIT REPORTS

CR-B-98-01   Audit of the Internal Control Structure of the Department of
             Energy Working Capital Fund, October 8, 1997

CR-B-98-02   Audit of Management of the Laboratory Directed Research and
             Development Program at the Lawrence Livermore National
             Laboratory, November 14, 1997

CR-L-98-01   Survey of the Department’s Energy Conservation Program,
             February 10, 1998

CR-L-98-02   Federal Managers’Financial Integrity Audit Report, December 18,
             1997

ER-B-98-01   Audit of the Deactivation, Decontamination, and Disposal of Sur-
             plus Facilities at the Savannah River Site, October 23, 1997
             Savings: $5,200,000

ER-B-98-02   Audit of Environmental Monitoring and Health Physics Laborato-
             ries at the Savannah River Site, November 3, 1997
             Savings: $30,000,000

ER-B-98-03   Audit of the Union Valley Sample Preparation Facility at Oak
             Ridge, November 7, 1997
             Questioned Costs: $4,000,000

ER-B-98-04   Audit of Selected Government-funded Grants and Contracts
             at Princeton University, December 2, 1997




                                  45
                    REPORTS ISSUED

ER-B-98-05    Audit of the Department of Energy’s Contracts With Envirocare
              of Utah, Inc., December 10, 1997
              Savings: $3,180,000

WR-B-98-01    Audit of the Radioactive Liquid Waste Treatment Facility Opera-
              tions at the Los Alamos National Laboratory, November 19,
              1997
              Questioned Costs: $2,150,000 Unsupported Costs: $8,600,000

WR-L-98-01    Audit of Equipment Use at Battelle-Pacific Northwest National
              Laboratory, November 14, 1997

IG-0412       Audit of the Contractor Incentive Program at the Nevada
              Operations Office, October 20, 1997
              Unsupported Costs: $1,420,100

IG-0413       Audit of Funding for Advanced Radioisotope Power Systems,
              October 17, 1997
              Questioned Costs: $46,300,000

IG-0414       Audit of the Department of Energy’s Management of Field
              Contractor Employees Assigned to Headquarters and Other
              Federal Agencies, December 5, 1997

IG-0415       Audit of Departmental Receipt of Final Deliverables for Grant
              Awards, December 4, 1997
              Savings: $232,856,519

IG-0416       Audit of Support Services Subcontracts at Argonne National
              Laboratory, December 23, 1997

IG-0417       Audit of the Department of Energy’s Management of Research
              and Development Integration, March 13, 1998

IG-0418       Audit of Alternatives to Testing at the Tonopah Test Range,
              March 13, 1998
              Savings: $22,304,600

                  FINANCIAL AUDIT REPORTS

CR-FC-98-01   Federal Energy Regulatory Commission’s Fiscal Year 1997 Finan-
              cial Statement Audit, February 24, 1998



                                   46
                      REPORTS ISSUED

CR-FS-98-02     Management Report on the Audit of the U.S. Department of En-
                ergy’s Consolidated Financial Statements for Fiscal Year 1997,
                March 26, 1998

CR-FS-L-98-01   Audit of the ADP General Controls at Idaho National Engineering
                and Environmental Laboratory, February 27, 1998

CR-FS-L-98-02   Audit of the ADP General Controls at Oak Ridge Complex, Febru-
                ary 27, 1998

CR-FS-L-98-03   Report on Results of Audit Procedures Performed at the Pittsburgh
                Naval Reactors Office During the Audit of the Department’s
                Consolidated Fiscal Year 1997 Financial Statements, March 6,
                1998

ER-FC-98-01     Southeastern Federal Power Program Fiscal Year 1996 Financial
                Statement Audit, December 9, 1997

ER-FC-98-02     Alaska Power Administration’s Fiscal Year 1997 Financial State-
                ment Audit, March 25, 1998

ER-FC-98-03     Isotope Production and Distribution Program’s Fiscal Year 1997
                Financial Statement Audit, March 27, 1998

ER-FS-98-01     Results of Audit Procedures Performed at the Chicago
                Operations Office During the Audit of the Department’s
                Consolidated Fiscal Year 1997 Financial Statements,
                March 27, 1998

ER-FS-98-02     Results of Audit Procedures Performed at the Savannah River
                Operations Office During the Audit of the Department’s
                Consolidated Fiscal Year 1997 Financial Statements,
                March 27, 1998

ER-FS-98-03     Matters Identified at the Oak Ridge Operations Office During
                the Audit of the Department’s Consolidated Fiscal Year 1997
                Financial Statements, March 30, 1998

ER-FS-98-04     Matters Identified at the Strategic Petroleum Reserve During the
                Audit of the Department’s Consolidated Fiscal Year 1997
                Financial Statements, March 31, 1998




                                     47
                    REPORTS ISSUED

ER-V-98-01    Assessment of Changes to the Internal Control Structure and
              Their Impact on the Allowability of Costs Claimed by and
              Reimbursed to Associated Universities, Inc. Brookhaven
              National Laboratory Under Department of Energy Contract
              DE-AC02-76CH016, October 3, 1997

ER-V-98-02    Assessment of Changes to the Internal Control Structure and
              Their Impact on the Allowability of Costs Claimed by and
              Reimbursed to Westinghouse Savannah River Company Under
              Department of Energy Contract No. DE-AC09-89SR18035,
              October 15, 1997

ER-V-98-03    Assessment of Changes to the Internal Control Structure and
              Their Impact on the Allowability of Costs Claimed by and Reimb-
              ursed to Lockheed Martin Specialty Components, Inc., Under
              Department of Energy Contract No. DE-AC04-92AL73000,
              October 28, 1997
              Questioned Costs: $178,399

ER-V-98-04    Assessment of Changes to the Internal Control Structure and
              Their Impact on the Allowability of Costs Claimed by and
              Reimbursed to EG&G Mound Applied Technologies, Inc.,
              Under Department of Energy Contract No. DE-AC24-
              88DP43495, February 24, 1998

WR-FC-98-01   Southwestern Federal Power System Fiscal Year 1996
              Financial Statement Audit, December 4, 1997

WR-FC-98-02   U.S. Department of Energy Naval Petroleum Reserve
              Number 1, Fiscal Year 1997 Financial Statement Audit,
              February 12, 1998

WR-FC-98-03   Western Area Power Administration’s Fiscal Year 1997
              Financial Statement Audit, February 26, 1998

WR-FC-98-04   Western Area Power Administration’s Parker-Davis Power
              System Fiscal Year 1997 Financial Statement Audit,
              March 18, 1998




                                  48
                    REPORTS ISSUED

WR-V-98-01    Assessment of Changes to the Internal Control Structure and
              Their Impact on the Allowability of Costs Claimed by and
              Reimbursed to Lockheed Martin Idaho Technologies Under
              Department of Energy Contracts No. DE-AC07-94ID13223
              and No. DE-AC07-94ID13299, November 13,1997
              Questioned Costs: $68,238

WR-V-98-02    Assessment of Changes to the Internal Control Structure and
              Their Impact on the Allowability of Costs Claimed by and
              Reimbursed to Sandia Corporation Under Department of Energy
              Contract No. DE-AC04-94AL85000, November 10, 1997

WR-V-98-03    Assessment of Statement of Costs Incurred and Claimed by
              Reynolds Electrical and Engineering Company, Inc. Under
              Department of Energy Contract No. DE-AC08-94NV11432,
              December 29, 1997

WR-V-98-04    Assessment of Statement of Costs Incurred and Claimed by
              EG&G Energy Measurements Under Department of Energy
              Contract No. DE-AC08-93NV11265, December 31, 1997

WR-V-98-05    Assessment of Statement of Costs Incurred and Claimed by
              Raytheon Services Nevada Under Department of Energy
              Contract No. DE-AC08-91NV10833, January 2, 1998

IG-FS-98-01   The U.S. Department of Energy’s Consolidated Financial
              Statements for Fiscal Year 1997, February 26, 1998



                     INSPECTIONS REPORTS

INS-O-98-01   Report on “Inspection of Concerns Regarding DOE’s
              Evaluation of Chevron U.S.A.’s Unsolicited Proposal
              for the Elk Hills Naval Petroleum Reserve,”
              November 17, 1997

INS-L-98-01   Report on “Inspection of the Department of Energy’s
              New Iberia Ethanol Plant,” February 9, 1998




                                  49
                              REPORTS ISSUED


          INSPECTOR GENERAL REPORTS AVAILABILITY
On the Internet

     Office of Inspector General reports are available electronically through the internet at
the following address: http://www.hr.doe.gov/ig/.

By U.S. Mail

      Persons wishing to request hardcopies of reports to be mailed to them may do so by
calling the automated Office of Inspector General Reports Request Line at (202) 586-
2744. The caller should leave a name, mailing address, and identification number of the
report needed. If the report’s identification number is unknown, the caller should leave a
short description of the report and a telephone number where the caller may be reached in
case further information is needed to fulfill the request.

Requests by Telefax

    In addition to using the automated Office of Inspector General Reports Request Line,
persons may telefax requests for reports to (202) 586-1660. Telefaxing requests may be
especially convenient for people requesting several reports.

Point of Contact for More Information

     Persons with questions concerning the contents, availability, or distribution of any
Office of Inspector General report may contact Wilma Slaughter by telephone at (202)
586-1924 or via the Internet at wilmatine.slaughter@hq.doe.gov.




                                             50
                                   STATISTICS

                                     DEFINITIONS

The following definitions, based on the Inspector General Act of 1978, apply to
terms used in this Semiannual Report.

Questioned Cost: A cost which the Inspector General questions because of:

   1. An alleged violation of a provision of a law, regulation, contract, grant, cooperative
      agreement, or other agreement or document governing the expenditure of funds;

   2. A finding that, at the time of an audit, such cost is not supported by adequate docu-
      mentation; or

   3. A finding that the expenditure of funds for the intended purpose is unnecessary or un-
      reasonable.

Unsupported Cost: A cost which the Inspector General questions because the Inspector
General found that, at the time of an audit, such cost is not supported by adequate documen-
tation.

Disallowed Cost: A questioned cost which Department management, in a management deci-
sion, has sustained or agreed should not be charged to the Government.

Recommendation That Funds Be Put to Better Use (“Savings”): An Inspector General
recommendation that funds could be used more efficiently if Department management took
actions to implement and complete the recommendations, including:

   1. Reduction in outlays;

   2. Deobligation of funds from programs or operations;

   3. Withdrawal of interest subsidy costs on losses or loan guarantees, insurance or bonds;

   4. Costs not incurred by implementing recommended improvements related to Depart-
      ment operations, contractors, or grantees;

   5. Avoidance of unnecessary expenditures noted in preaward reviews of contract or grant
      agreements; or

   6. Any other savings which are specifically identified.


                                              53
                                   STATISTICS

Management Decision: The evaluation by Department management of the findings and rec-
ommendations included in an audit report and the issuance of a final decision by Department
management concerning its response to such findings and recommendations, including actions
determined to be necessary.

Final Action: The completion of all actions that Department management has determined, in
its management decision, are necessary with respect to the findings and recommendations in-
cluded in an audit report. In the event that Department management concludes no action is
necessary, final action occurs when a management decision has been made.




                                            54
                                      STATISTICS

                            AUDIT REPORT STATISTICS
                          October 1, 1997 through March 31, 1998

The following table shows the total number of operational and financial audit reports, and
the total dollar value of the recommendations.

                              Total        One-Time          Recurring              Total
                            Number          Savings            Savings            Savings

Those issued before the
reporting period for
which no management
decision has been made:           9      $64,962,477      $126,363,760       $191,326,237

Those issued during the
reporting period:                44     $332,324,256        $23,933,600      $356,257,856

Those for which a
management decision was
made during the reporting
period:                          26     $317,069,619        $43,933,600      $361,003,219

Agreed to by management:                $289,106,445                 $0      $289,106,445
Not agreed to by management:              $6,894,775        $16,693,600       $23,588,375

Those for which a
management decision is
not required:                    18                $0                $0                 $0

Those for which no
management decision had
been made at the end of
the reporting period*:            9     $101,285,513      $133,603,760       $234,889,273

*NOTE: The figures for dollar items include sums for which management decisions on the
savings were deferred.




                                             55
                                    STATISTICS

                            AUDIT REPORT STATISTICS


The following table shows the total number of contract audit reports, and the total dollar
value of questioned costs and unsupported costs.

                                   Total              Questioned          Unsupported
                                 Number                    Costs                Costs

Those issued before the
reporting period for
which no management
decision has been made:                 4            $6,717,811*                $84,241

Those issued during the
reporting period:                       1                      $0                     $0

Those for which a
management decision was
made during the reporting
period:                                 1               $139,000                      $0

Value of disallowed costs:                                $98,000                     $0
Value of costs not disallowed:                            $41,000                     $0

Those for which a
management decision is
not required:                           1                      $0                     $0

Those for which no
management decision had
been made at the end of
the reporting period:                   3             $6,578,811                $84,241

*This figure has been adjusted downward by $269 to the correct figure shown due to round-
ing on one monetary impact report submitted to the Office of Inspector General.




                                              56
                                   STATISTICS


             REPORTS LACKING MANAGEMENT DECISION

The following are audit reports issued before the beginning of the reporting period for which
no management decisions had been made by the end of the reporting period, the reasons man-
agement decisions had not been made, and the estimated dates (where available) for achieving
management decisions. These audit reports are over 6 months old without a management de-
cision.

The Contracting Officers have not yet made decisions on the following contract reports for
the following reasons. They include delaying settlement of final costs questioned in audits
pending completion of review of work papers and heavy workloads delaying the closing
process. The Department has a system in place which tracks audit reports and management
decisions. Its purpose is to ensure that recommendations and corrective actions indicated by
audit agencies and agreed to by management are indeed addressed and effected as efficiently
and expeditiously as possible.

ER-CC-93-05           Report Based on the Application of Agreed-Upon Procedures With
                      Respect to Temporary Living Allowance Costs Claimed Under Con-
                      tract No. DE-AC09-88SR18035, October 1, 1987, to September 20,
                      1990, Bechtel National, Inc., San Francisco, California, and Bechtel
                      Savannah River, Inc., North Augusta, South Carolina, May 3, 1993
                      (Estimated date of closure: June 30, 1998)

WR-C-95-01            Report on Independent Final Audit of Contract No. DE-AC34-
                      91RF00025, July 26, 1990, to March 31, 1993, Wackenhut Services,
                      Inc., Golden, Colorado, March 13, 1995
                      (Estimated date of closure: July 1998)

ER-C-97-01            Report on the Interim Audit of Costs Incurred Under Contract No.
                      DE-AC24-92OR21972 From Octobe r1, 1994, to September 30, 1995,
                      Fernald Environmental Restoration Management Corporation, Fernald,
                      Ohio, December 20, 1996
                      (Estimated date of closure: October 1998)




                                             57
                                  STATISTICS

Additional time was necessary to develop management decisions for the following reports.
Further explanations for the delays follow each audit report.

CR-B-97-02           Audit of Department of Energy’s Contractor Salary Increase Fund,
                     April 4, 1997

                     The finalization of the management decision on this report is awaiting
                     resolution of one outstanding issue. It is estimated that this will occur by
                     July 31, 1998.

IG-0399              Audit of the U.S. Department of Energy’s Identification and Disposal
                     of Nonessential Land, January 8, 1997

                     The management decision is awaiting the Secretary’s approval, which
                     should occur by June 5, 1998

IG-0407              Audit of the U.S. Department of Energy’s Science and Technical
                     Information Process, June 17, 1997

                     The management decision is under Secretarial review. Finalization
                     is expected to occur by June 30, 1998

IG-0411              Audit of Contractors’Incentive Programs at the Rocky Flats Environ-
                     mental Technology Site, August 13, 1997

                     The finalization of the management decision on this report is pending
                     the resolution of one outstanding issue. This should occur by June 30,
                     1998




                                             58
                                                   STATISTICS

                                     INVESTIGATIVE STATISTICS

                          The investigative statistics below cover the period from
                                October 1, 1997, through March 31, 1998

Investigations open at the start of this reporting period ................................................ 318
Investigations opened during this reporting period ......................................................... 58
Investigations closed during this reporting period .......................................................... 74
Investigations open at the end of this reporting period ................................................. 302

Debarments/suspensions ................................................................................................ 12
Investigations referred to management for recommended positive action........................ 21
Administrative disciplinary actions taken........................................................................ 10

Investigations referred for prosecution........................................................................... 22
        Acceptedu ......................................................................................................... 16
        Declinedu .......................................................................................................... 19

          Indictments .......................................................................................................... 5
          Convictions.......................................................................................................... 3
          Pretrial diversions ................................................................................................ 0

Fines, settlements, and recoveriesu u ............................................................$1,612,931.60
u
  Some of the investigations accepted or declined during this 6-month period were referred
for prosecution during a previous reporting period.
uu
     Some of the money collected was the result of Task Force Investigations.

                                                      Hotline Statistics

Complaints received via the Hotline............................................................................. 294
Complaints received via the General Accounting Office ................................................... 4
Total complaints received ............................................................................................ 298

Investigations opened on Hotline complaints ................................................................. 13
Complaints resolved or pending resolution................................................................... 101
Complaints that required no investigation by OIG........................................................ 184
Total complaints disposition ........................................................................................ 298




                                                                 59
                                                   STATISTICS

                                         INSPECTION STATISTICS

                            The inspection statistics below cover the period from
                                 October 1, 1997, through March 31, 1998


                 Allegation-Based, Reprisal, and Management System Inspections

Inspections open at the start of this reporting period .................................................... 171
Inspections opened during this reporting period ............................................................. 29
Inspections closed during this reporting period .............................................................. 35
Inspections open at the end of this reporting period ..................................................... 165
Reports issuedu ............................................................................................................... 8
Allegation-based inspections closed after preliminary review............................................ 4
Reprisal complaint actions during this reporting period ................................................ ..16
        Reprisal complaints dismissed ..................................................................9
        Reports of reprisal inquiry issued ............................................................1
        Reprisal complaints settled .......................................................................1
        Reprisal complaints withdrawn.................................................................1
        Reprisal complaints completed by other means.........................................4
Inspection recommendations
        Accepted this reporting period ........................................................................... ..3
        Implemented this reporting period...................................................................... 29
Complaints referred to Department management/others ............................................... 121
        Number of these referrals requesting a response for OIG evaluation ................... 46
Personnel management actions taken as a result of inspections
        or complaints referred to management................................................................. .1


u
    Reports include non-public reports such as administrative allegations and personnel se-
curity reports.




                                                                 60
                                     STATISTICS

----------------------------------------------------------------------------------------------


                                 FEEDBACK SHEET


----------------------------------------------------------------------------------------------


The contents of the April 1998 Semiannual Report to Congress comply with the require-
ments of the Inspector General Act of 1978, as amended. However, there may be addi-
tional data which could be included or changes in format which would be useful to recipi-
ents of the Report. If you have suggestions for making the report more responsive to your
needs, please complete this feedback sheet and return it to:

                                 Department of Energy
                                 Office of Inspector General (IG-13)
                                 Washington, D.C. 20585

                                 ATTN: Wilma Slaughter



Your name:

Your daytime telephone number:

Your suggestion for improvement: (please attach additional sheets if needed)




If you would like to discuss your suggestion with a staff member of the Office of Inspector
General or would like more information, please call Wilma Slaughter at (202) 586-1924 or
contact her on the Internet at wilmatine.slaughter@hq.doe.gov.


                                                61
